TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                                        RECOVERY ACT


                   Review of the Internal Revenue Service’s
                  American Recovery and Reinvestment Act
                     Fund Expenditures During the Period
                  April 1, 2010, Through September 30, 2010



                                         February 7, 2013

                             Reference Number: 2013-IE-R003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                        DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   February 7, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Inspection Report – Review of the Internal Revenue Service’s
                                 American Recovery and Reinvestment Act Fund Expenditures During
                                 the Period April 1, 2010, Through September 30, 2010 (IE-12-001-A)

 This report presents the results of our inspection to evaluate the Internal Revenue Service’s (IRS)
 compliance with the Office of Management and Budget’s (OMB) implementing guidance for the
 American Recovery and Reinvestment Act of 2009 (Recovery Act).1 This is the third in a series
 of inspections regarding compliance with OMB Recovery Act guidance.
 The overall objective of this inspection was to verify the accuracy and timeliness of the payment
 of the IRS’s Recovery Act procurement invoices and the timeliness and transparency of
 reporting these expenditures for the period April 1, 2010, through September 30, 2010.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in the oversight activities of the IRS’s
 programs. This inspection was conducted using Recovery Act funds.

 Synopsis
 Our review of the IRS Recovery Act-related expenditures from April 1, 2010, through
 September 30, 2010, showed that the IRS was substantially in compliance with the OMB’s
 Recovery Act implementation guidance. The IRS purchased Recovery Act-related goods and
 services totaling more than $27 million during the period and obtained 92.2 percent of the more
 than $225,000 in funds available for discounts on Recovery Act-related procurements. For these



 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                     Review of the Internal Revenue Service’s
                  American Recovery and Reinvestment Act Fund
                          Expenditures During the Period
                    April 1, 2010, Through September 30, 2010



expenditures, the IRS executed adequate internal controls to ensure accurate and timely
reporting.
However, we observed that 11 weeks of the Financial and Activity Reports for the IRS Recovery
Act expenditures, totaling approximately $7.4 million, were not posted on
http://www.recovery.gov (Recovery.gov). As a result, one of the major goals of the Recovery
Act, to establish unprecedented transparency, was not fully achieved because the public was not
able to timely see the complete IRS Recovery Act expenditure data on the website. These
omissions were corrected on September 6, 2012, after our discussion with the IRS about its
controls and processes for Recovery Act expenditures. Also, the IRS made two delayed invoice
payments, resulting in additional payments of more than $18,000.

Response
IRS management agreed with the observations in our report. Management’s complete response
is included in Appendix IV.
If you have questions, please contact me at (202) 927-7048 or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                2
                            Review of the Internal Revenue Service’s
                         American Recovery and Reinvestment Act Fund
                                 Expenditures During the Period
                           April 1, 2010, Through September 30, 2010




                                            Table of Contents

Background ......................................................................................................... .Page 1

Results of Inspection ......................................................................................... Page 3
          Recovery Act Expenditures Were Reported Accurately and Timely;
          However, Recovery.gov Was Not Updated to Ensure Transparency ........... Page 3
          Financial Reports Substantially Complied With the Office of
          Management and Budget’s Implementing Guidance and
          Recovery Act Requirements ......................................................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 5
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Management’s Response to the Draft Report ...................... Page 9
          Review of the Internal Revenue Service’s
       American Recovery and Reinvestment Act Fund
               Expenditures During the Period
         April 1, 2010, Through September 30, 2010




                    Abbreviations

FAR           Financial and Activity Report
IRS           Internal Revenue Service
OMB           Office of Management and Budget
RATB          Recovery Accountability and Transparency Board
SOAF          Status of Available Funds
                         Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                              Expenditures During the Period
                        April 1, 2010, Through September 30, 2010




                                              Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act),1 enacted on
February 17, 2009, allocated $787 billion over 10 years designed to stimulate the national
economy. The Recovery Act contained both spending and tax provisions.
The Internal Revenue Service (IRS) is responsible for administering the tax law changes
contained in the Recovery Act. In April 2009, the IRS received $202 million of its appropriation
of Recovery Act funds.2 These funds are required to implement the necessary tax-related
changes resulting from provisions of the Recovery Act. The changes included reprogramming
the IRS computer systems, updating related tax forms and publications, and providing customer
service to assist taxpayers in obtaining their Recovery Act benefits. As of September 30, 2010,
the IRS had obligated more than $189 million, with disbursements exceeding $165 million.
One of the stated goals of the Recovery Act is to “foster unprecedented levels of accountability
and transparency in government spending.” The Recovery Accountability and Transparency
Board (RATB)3 provides transparency to the public concerning Recovery Act funds by
publishing the IRS’s (as well as other Federal agencies’) use of recovery funds on Recovery.gov.
The Office of Management and Budget (OMB)4 issued several supplemental guidance
documents5 that outlined steps for implementing the Recovery Act and clarified the requirements
for processing procurements. Federal agencies are required to:




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  This appropriation included $80 million for Fiscal Years 2009 through 2010 to implement the Health Coverage
Tax Credit program. The IRS also received $123 million for supporting tax provision changes cited in the Recovery
Act. The Department of the Treasury retained $1 million for administrative oversight, resulting in the IRS receiving
$202 million.
3
  The RATB was created by the Recovery Act with two goals: to provide transparency of Recovery Act funds and
to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal agencies
serve with the chairman. The RATB issues quarterly and annual reports to the President and Congress and, if
necessary, “flash reports” on matters that require immediate attention.
4
  The OMB has primary responsibility for developing Government-wide rules and procedures to ensure that funds
are awarded and distributed in a prompt and fair manner, that use of funds is transparent to the public, and that steps
are taken to mitigate fraud, waste, and abuse.
5
  M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(Feb. 18, 2009); M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act of 2009
(Apr. 3, 2009); and M-10-34, Updated Guidance on the American Recovery and Reinvestment Act (Sept. 24, 2010).
                                                                                                               Page 1
                         Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                              Expenditures During the Period
                        April 1, 2010, Through September 30, 2010


        Report to the RATB, on a weekly basis, all cumulative Recovery Act obligations and
         gross outlays (expenditures)6 in a standard reporting format;
        Report their cumulative activity through Friday and submit their weekly reports the
         following Tuesday; and
        Use separate Treasury Appropriation Fund Symbols7 to track and report Recovery Act
         obligations and disbursements.
The IRS’s Office of the Chief Financial Officer prepares the Total Obligations and Gross
Outlays sections of the OMB Financial and Activity Report (FAR) and submits it to the IRS’s
Recovery Act staff every week. The IRS Recovery Act staff members validate the information
and post it to the OMB’s MAX web page8 for the Department of the Treasury’s consolidation
and approval prior to the final posting on Recovery.gov.
In performing this review during the period July through October 2012, we obtained relevant
data and information from personnel at the IRS Headquarters in Washington, D.C., and the
Beckley Financial Center in Beckley, West Virginia. The review included Recovery Act
invoices submitted to the IRS for payment during the period April 1, 2010, through
September 30, 2010.
This inspection was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on the
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




6
  Total Obligations equal the sum of financial commitments and expenditures. Total Outlays consist of expenditures
only.
7
  Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
8
  The OMB’s MAX web page, https://max.omb.gov/maxportal/home.do, is an Internet site for Federal agencies to
send apportionment requests to the OMB.
                                                                                                              Page 2
                         Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                              Expenditures During the Period
                        April 1, 2010, Through September 30, 2010




                                   Results of Inspection

Recovery Act Expenditures Were Reported Accurately and Timely;
However, Recovery.gov Was Not Updated to Ensure Transparency
During the period April 1, 2010, through September 30, 2010, the IRS continued procurement
actions implementing the Recovery Act program objectives. For this period, the IRS purchased
Recovery Act-related goods and services totaling more than $27 million and obtained
92.2 percent of the more than $225,000 in funds available for discounts. The IRS spent just
under $22.6 million on the Health Insurance Tax Credit Administration and more than
$4.7 million in Recovery Act administrative costs. These purchases consisted of system changes
for reprogramming the IRS’s computer systems and updating related tax forms and publications.
Additionally, the IRS spent funds on customer service enhancements to assist taxpayers in
obtaining Recovery Act benefits. For these expenditures, the IRS executed adequate internal
controls to ensure timely reporting, but it delayed payment for two invoices, resulting in
avoidable payments of more than $18,000.9
The RATB includes timely received reports from the agencies in its weekly posting to
Recovery.gov. This process ensures that the IRS’s use of Recovery Act funds is transparent to
the public as required by the Recovery Act. Our review showed that 11 of the 26 weeks of the
IRS’s FAR data, totaling approximately $7.4 million, were missing from the Recovery.gov
website. The IRS and the Department of the Treasury timely forwarded the FAR information for
posting to the website. However, we were unable to determine why the information was not
posted to the website timely. These omissions resulted in a lack of transparency for the IRS’s
Recovery Act expenditures. Transparency involves timely and accurate posting of FAR data on
the website in compliance with OMB guidance.
After the Treasury Inspector General for Tax Administration informed the IRS of the missing
data, the reports were updated on Recovery.gov on September 6, 2012. Subsequently, we were
able to reconcile all 26 weeks of the Expenditures and Disbursements on the Status of Available
Funds (SOAF) Report to the Obligations and Outlays reported on the FAR10 for both direct
expenses and interagency transfer costs.



9
  On one invoice payment, the IRS did not take $17,583 of the total discount offered by the contractor due to delay
in payment. On another invoice, an overpayment of $1,159 was incurred due to late payment.
10
   The FARs and the SOAF Reports for the period in review did not reflect the sum of $32,934 paid to one of the
vendors on September 29, 2010, but the amount was included in the reports for the week ending October 22, 2010.
                                                                                                             Page 3
                    Review of the Internal Revenue Service’s
                 American Recovery and Reinvestment Act Fund
                         Expenditures During the Period
                   April 1, 2010, Through September 30, 2010


Financial Reports Substantially Complied With the Office of
Management and Budget’s Implementing Guidance and Recovery Act
Requirements
The IRS complied with OMB guidance and Recovery Act requirements by:
      Submitting weekly reports of its cumulative Recovery Act obligations and gross outlays
       in the prescribed format;
      Using separate Treasury Appropriation Fund Symbols for its two Recovery Act funds;
       and
      Ensuring Recovery Act expenditures were timely forwarded to the Department of the
       Treasury for timely posting to Recovery.gov.




                                                                                        Page 4
                        Review of the Internal Revenue Service’s
                     American Recovery and Reinvestment Act Fund
                             Expenditures During the Period
                       April 1, 2010, Through September 30, 2010


                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this inspection was to verify the accuracy of the IRS’s accounting and
timeliness of reporting of American Recovery and Reinvestment Act of 2009 (Recovery Act)1
procurement expenditures. We reviewed all 29 invoices paid for the period April 1, 2010,
through September 30, 2010, electronic files of which were provided to us by representatives
from the IRS Beckley Finance Center in Beckley, West Virginia. The IRS purchased goods and
services totaling more than $27 million during this period.
To accomplish this objective, we:
I.      Documented procedures used to identify, record, and report Recovery Act expenditures,
        including internal controls.
        A. Interviewed an analyst in the Budget Execution Office in the IRS’s Headquarters to
           identify the reporting process.
        B. Reviewed the FARs for the period under inspection, which are posted on
           http://www.recovery.gov (Recovery.gov).
II.     Determined whether Recovery Act procurement expenditures that the IRS reported were
        accurate and substantiated by complete and reliable supporting documentation.
        A. Identified all Recovery Act expenditures for the period April 1, 2010, through
           September 30, 2010.
        B. Traced Recovery Act procurement expenditures to available supporting
           documentation, i.e., invoices, receiving reports, and check payment records.
        C. Verified the mathematical accuracy of expenditures and supporting documentation.
        D. Compared Recovery Act expenditures from the Weekly Financial Report on
           Recovery.gov to the amounts the IRS recorded in the Integrated Finance System.2




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated funds
received by the IRS.
                                                                                                           Page 5
                         Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                              Expenditures During the Period
                        April 1, 2010, Through September 30, 2010


         E. Determined if the IRS used separate Treasury Appropriation Fund Symbols3 for its
            two Recovery Act funds.
             1. Treasury Appropriation Fund Symbol 20-0129 2009/2011 for Administrative
                Expense – Recovery Act.
             2. Treasury Appropriation Fund Symbol 20-0934 2009/2011 for Health Insurance
                Tax Credit Administration – Recovery Act.
         F. Reconciled disbursements from the Integrated Financial System to the Total Gross
            Outlays on the FAR.
         G. Obtained SOAF Reports from the IRS.
         H. Reconciled the IRS Recovery Act weekly reports provided during the period in
            review.
III.     Determined whether the IRS has established effective controls to identify, record, and
         report Recovery Act expenditures in accordance with OMB guidance.
         A. Obtained and reviewed all guidance issued by the OMB pertaining to procurement of
            goods and services using Recovery Act funds.
         B. Evaluated the procedures for recording Recovery Act obligations, outlays,
            disbursements, and payments made against these funds and reconciled the sum of the
            obligations, expenditures, and disbursements amounts from the SOAF Reports to the
            Total Obligations and Gross Outlays columns of the FAR.




3
  Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
                                                                                                              Page 6
                    Review of the Internal Revenue Service’s
                 American Recovery and Reinvestment Act Fund
                         Expenditures During the Period
                   April 1, 2010, Through September 30, 2010


                                                               Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Evaluator
Mark Anderson, Program Analyst
Joe Wolemonwu, Program Analyst




                                                                     Page 7
                    Review of the Internal Revenue Service’s
                 American Recovery and Reinvestment Act Fund
                         Expenditures During the Period
                   April 1, 2010, Through September 30, 2010


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                        Page 8
        Review of the Internal Revenue Service’s
     American Recovery and Reinvestment Act Fund
             Expenditures During the Period
       April 1, 2010, Through September 30, 2010


                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 9
